No. 19-1194
IN THE

Supreme Court of the United States
_________
JIAHAO KUANG, ET AL.,
Petitioners,
v.
U.S. DEPARTMENT OF DEFENSE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 4th day of May 2020, caused a paper copy of the Brief of The
Modern Military Association of America, The Center for Law and Military Policy, The
Honorable Gordon O. Tanner, The Service Women’s Action Network, Mr. C. Dixon
Osburn, The Military Officers Association of America, The American GI Forum, and
The Minority Veterans of America as Amici Curiae in Support of Petitioners to be
delivered to the Court via overnight mail and an electronic version of the document to
be transmitted via the Court’s electronic filing system to:
Melissa Arbus Sherry
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3386
melissa.sherry@lw.com

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Jiahao Kuang, et al.

U.S. Department of Defense, et al.

/s/Ian Heath Gershengorn
Ian Heath Gershengorn

